                          UNITED STATES DEPARTMENT OF EDUCATION
                               OFFICE OF INSPECTOR GENERAL
                                               Chicago/Kansas City Audit Region

                   111 N. Canal St. Ste. 940                              8930 Ward Parkway, Ste 2401
                   Chicago, IL 60606-7297                                 Kansas City, MO 64114-3302
                   Phone (312) 886-6503                                   Phone (816) 268-0500
                   Fax (312) 353-0244                                     Fax (816) 823-1398



                                                    November 13, 2006
                                                                                               Control Number
                                                                                               ED-OIG/A05G0015

Dr. Susan Tave Zelman
Superintendent of Public Instruction
Ohio Department of Education
25 South Front Street
Columbus, Ohio 43215-4183

Dear Dr. Zelman:

This Final Audit Report presents the results of our audit entitled Ohio Department of
Education’s Title I, Part A, Comparability of Services Requirement. Our audit objectives were
to determine whether the Ohio Department of Education (ODE) (1) monitored local education
agencies’ (LEA) compliance with Title I, Part A, Comparability of Services and (2) ensured that
the LEAs were reporting complete and accurate comparability information to ODE for the period
July 1, 2003, through June 30, 2004 (2003-2004 program year). We also obtained information
covering the 2004-2005 program year to ensure annual compliance with comparability
requirements.




                                                   BACKGROUND


The Title I, Part A, program of the Elementary and Secondary Education Act of 1965 (ESEA), as
amended by the No Child Left Behind Act of 2001 (P.L. 107-110), provides financial assistance
through state educational agencies (SEA) to LEAs and those elementary and secondary schools
with the highest concentrations of children from low-income families. To be eligible to receive
Title I funds, an LEA must use state and local funds to provide services in Title I schools that,
taken as a whole, are at least comparable to services provided in non-Title I schools. ODE
allocated ESEA, Title I, Grants to LEAs totaling $365,642,385 to 590 of 613 LEAs and
$351,225,015 to 584 of 615 LEAs in the 2003-2004 and 2004-2005 program years, respectively.

In 2004, ODE established a compliance monitoring system to assist LEAs in assuring that they
are meeting the legal requirements of all programs for which they receive federal funding,
including Title I, Part A. The monitoring system includes four tiers (Self Evaluation, Desk
Audit, Telephone Interview, and Site Visit). Each year ODE randomly assigns a cohort,
composed of one third of the LEAs, to be monitored by means of the online self-evaluation.

          Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
Final Report
ED-OIG/A05G0015                                                                                    Page 2 of 30
ODE selects at least ten percent of the LEAs in the cohort to receive a site visit as part of the
monitoring process.

To verify whether ODE was monitoring LEAs’ compliance with Title I, Part A, Comparability of
Services, we judgmentally selected, for testing, and visited three LEAs within the State of Ohio:
Cleveland Municipal School District (Cleveland), Dover City School District (Dover), and
Buckeye Valley Local School District (Buckeye Valley). 1 The Title I allocations for the LEAs’
2003-2004 and 2004-2005 program years are represented in the table below.

        LEA Name                  2003-2004 Title I Allocation 2004-2005 Title I Allocation
        Cleveland                                 $48,677,123                  $48,480,784
        Dover                                        $329,469                     $323,116
        Buckeye Valley                               $188,841                     $126,171

An LEA may determine comparability on a district wide basis or on a grade span basis. When
grade levels overlap within a particular grade span, the LEA looks at where the majority of grade
levels fall within the span to determine whether the school should be in elementary, middle, or
high school grade spans. For the 2003-2004 and 2004-2005 program years, ODE allowed LEAs
two methods to demonstrate comparability among schools: student/instructional staff ratio
(Method A) or per pupil expenditure (Method B). According to ODE policy, the method the
LEA selects must be uniformly applied across all schools within the LEA.




                                            AUDIT RESULTS


ODE can improve its monitoring of LEAs’ compliance with Title I, Part A, Comparability of
Services. ODE did not ensure that LEAs were reporting complete and accurate comparability
information. ODE did not adequately monitor LEAs’ compliance because ODE did not always
use correct data when reviewing the LEAs’ comparability reports for the 2003-2004 program
year. In addition, ODE did not ensure that each LEA developed and followed procedures for
complying with comparability of services requirements in the 2003-2004 and 2004-2005
program years. As a result, ODE cannot ensure that the LEAs were reporting complete and
accurate comparability information. Two of the three LEAs we visited had reported inaccurate
or unsupported comparability information to ODE. Therefore, ODE was not able to demonstrate
that two of the three LEAs used state and local funds to provide services in Title I schools that
were at least comparable to services provided in non-Title I schools.

In response to the draft report, ODE did not dispute our findings and generally concurred with all
of the recommendations, except for Recommendation 2.1. ODE's comments are summarized at
the end of each finding and the full texts of the comments are included as Attachments to this
report.



1
 By selecting 3 of 615 LEAs, we tested approximately 7.4 percent and 7.2 percent of the total Title I funding that
ODE distributed to the LEAs in 2003-2004 and 2004-2005 program years, respectively.
                                                                                    .
Final Report
ED-OIG/A05G0015                                                                     Page 3 of 30


FINDING NO. 1 – ODE Can Improve Its Monitoring of LEAs’ Compliance with
                Title I, Part A, Comparability of Services

ODE can improve its monitoring of LEAs’ compliance with the Title I, Part A, Comparability of
Services requirement. ODE did not ensure it used correct data when reviewing the LEAs’
comparability. In addition, the monitoring team did not verify whether the LEAs had adequate
procedures in place to ensure compliance with the comparability of services requirements.

Section 1120A(c)(1)(A), of the ESEA states that an LEA may receive funds under this part only
if state and local funds will be used in schools served under this part to provide services that,
taken as a whole, are at least comparable to services in schools that are not receiving funds under
this part. Under the Uniform Administrative Requirements for Grants and Cooperative
Agreements to State and Local Governments, 34 C.F.R. 80.40(a), grantees are responsible for
managing the day-to-day operations of grant and subgrant supported activities. Grantees must
monitor grant and subgrant supported activities to assure compliance with applicable federal
requirements and that performance goals are being achieved. Grantee monitoring must cover
each program, function, and activity.2

Section 1120A(c)(3)(A), of the ESEA also states that each LEA assisted under this part shall
develop procedures for compliance with this subsection. According to the U.S. Department of
Education’s (Department) Policy Guidance for Title 1, Part A: TImproving Basic Programs
Operated by Local Educational Agencies (April 1996), an LEA must develop procedures for
compliance with the comparability requirements and implement those procedures annually.

ODE Did Not Always Ensure it Used Correct Data to Review Comparability Reports

During the 2003-2004 program year, ODE used outdated data when reviewing some of the
LEAs’ comparability reports. As a result, it used incorrect data to review comparability reports
for 1 of 15 LEAs selected for testing. ODE’s Comprehensive Continuous Improvement Plan
(CCIP) system included incorrect data for 7 of the 65 total schools within the Toledo LEA. ODE
incorrectly altered the data on Toledo’s comparability reports to match the outdated data. ODE’s
comparability file did not include documentation to show that it contacted Toledo to confirm that
the changes it made to Toledo’s comparability report data were correct, prior to entering them.

ODE used the CCIP to review data such as the Information Retrieval Number (IRN), grade span,
and building name for accuracy in the comparability reports. The CCIP downloads its data from
the Ohio Education Directory System (OEDS), which is populated by the LEAs.

ODE does not update CCIP from OEDS on a regular basis. The most recent CCIP update from
OEDS, prior to comparability, was completed on July 1, 2003, and ODE reviewed Toledo’s
comparability report on December 2, 2003. Comparability reports were due to ODE from the
LEAs on December 1, 2003. Therefore, the CCIP data was five months old when comparability
was completed. Although the Toledo LEA had updated the OEDS system on September 3, 2003,
ODE finally downloaded the CCIP from OEDS again on December 23, 2003. As a result,
outdated data from the CCIP was used to review Toledo’s reported comparability data during the

2
    All regulatory citations are as of July 1, 2003.
                                                                       .
Final Report
ED-OIG/A05G0015                                                                    Page 4 of 30
2003-2004 program year. The errors did not affect the comparability results for the 2003-2004
program year. However, ODE’s incorrect data revisions may affect its ability to identify non-
comparable LEAs in the future.

The Monitoring Team Did Not Verify LEAs had Adequate Procedures in Place

Although ODE monitored the LEAs, 3 its monitoring procedures did not ensure that the LEAs
had adequate procedures to comply with comparability requirements. We found that two of the
three LEAs we visited had inadequate procedures in place. 4 Buckeye Valley did not have
procedures in place for complying with comparability of services requirements in the 2003-2004
program year. Although it started to develop procedures for the 2004-2005 program year, the
procedures were inadequate. In addition, Cleveland had inadequate procedures in place for
complying with comparability of services requirements in the 2003-2004 and 2004-2005
program years. The Cleveland and Buckeye Valley LEAs’ procedures did not include specific
instructions on the steps necessary for determining comparability.

ODE conducted an onsite review of Cleveland as part of its compliance monitoring process for
the 2003-2004 program year. Dover and Buckeye Valley were only required to complete the
online self-evaluation for the 2004-2005 program year. The ODE compliance monitoring team’s
onsite checklist did not contain a step to ensure whether the LEAs maintained documentation to
support the data reported for comparability and had adequate procedures for completing their
comparability reports. The only Title I area that the monitoring team reviewed, relevant to
comparability, was the availability of low-income data, which is used to determine eligibility,
and enrollment data. The monitoring team did not ensure that the LEAs were maintaining
documentation of staffing or budget data, which is also required to compute comparability.

ODE might have misinterpreted the law and guidance concerning the LEAs’ need for its own
procedures. ODE stated that the language in both Section 1120A(c)(3) and the Department’s
guidance which states that each LEA must develop procedures for comparability compliance and
those procedures should be in writing is permissive and only a recommendation.

Because ODE did not adequately monitor LEA compliance with Title I, Part A, Comparability of
Services, it was not able to demonstrate whether schools used state and local funds to provide
services in Title I schools that were at least comparable to services provided in non-Title I
schools.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require
ODE to—

1.1         Update CCIP from OEDS on a more regular basis to ensure that current information is
            used to review comparability reports.




3
    See Background Section of this report for more information.
4
    See Finding No. 2 for more information.
                                                                        .
Final Report
ED-OIG/A05G0015                                                                     Page 5 of 30
1.2       Obtain confirmations from LEAs regarding all revisions ODE makes to reported
          comparability data.

1.3       Ensure LEAs develop written procedures for compliance with the comparability of
          services requirement and implement those procedures annually.

1.4       Require the compliance monitoring team to review the adequacy of the LEAs’ procedures
          during its monitoring process.

ODE Comments
ODE generally agreed with the recommendation related to updating data to the CCIP tool on a
more regular basis. ODE agreed that additional emphasis on the development and
implementation of written procedures would likely assist LEA administrators to improve the
quality of their work and leave a cleaner audit trail. ODE also agreed to increase oversight of
LEA-written procedures to help ensure that the LEA staff can identify their sources of data and
the point in time the data represents in complying with the comparability requirements.
However, ODE initially questioned Recommendation No. 1.2, which stated ODE should obtain
confirmations from LEAs regarding all revisions it makes to reported comparability data because
it misunderstood the recommendation. After we clarified the interpretation of the
recommendation for ODE, it sent us a revised response in which it concurred with the
recommendation. (See Attachment 2)

OIG Response
Based on ODE’s comments to the draft report and the documentation ODE provided, we did not
change our finding or recommendations.


FINDING NO. 2 – ODE Did Not Ensure That LEAs Were Reporting Complete and
                Accurate Comparability Information

Two of the three LEAs we visited had inaccurate or unsupported comparability information
during the 2003-2004 and 2004-2005 program years.

      •   Buckeye Valley did not maintain adequate documentation to support its instructional staff
          and student data used to populate its 2003-2004 comparability reports. In addition,
          Buckeye Valley did not maintain adequate documentation to support its instructional staff
          data used to determine its comparability for the 2004-2005 program year, a non-reporting
          year. Therefore, we could not determine whether the comparability information reported
          to ODE was complete and accurate. Specifically, Buckeye Valley was able to retrieve
          some supporting documentation from its schools to support its instructional staff and
          student data; however, the supporting documentation was incomplete and disorganized.
          For the 2003-2004 and 2004-2005 program years, we reviewed the documentation for all
          three of Buckeye Valley’s elementary schools. The full time equivalency calculations
          included in the documents for all three of the elementary schools tested were incorrect
          and notations to support those calculations were either unsubstantiated or absent. In
          addition, for the 2003-2004 program year, the student data calculations included in the
          documents for all three of the elementary schools tested were incorrect and notations to
          support those calculations were either unsubstantiated or absent; for instance, preschool
                                                                        .
Final Report
ED-OIG/A05G0015                                                                     Page 6 of 30
       and half day kindergarten were not subtracted from student totals used to complete the
       comparability report.
   •   Cleveland entered the number of instructional staff employed on a given day instead of
       the full time equivalency when completing its comparability reports. Therefore, the
       student/instructional staff ratios may be understated, making it appear as though
       Cleveland and its individual schools met comparability requirements.
   •   Cleveland and Buckeye Valley may not have extracted the instructional staff and student
       data they used to populate the 2003-2004 and 2004-2005 comparability reports from their
       systems on the same date. Therefore, the data may not have been appropriate for
       comparison purposes. Specifically, Cleveland’s instructional staff and student data,
       which reside on individual systems, were not being updated on the same dates.
       According to a Cleveland official, instructional staff data were updated daily while the
       student data may have only been updated on a weekly basis. Buckeye Valley obtained its
       instructional staff and student data in the same month, but not on the same date. Neither
       Cleveland nor Buckeye Valley could provide supporting documentation to demonstrate
       that the data was extracted on the same date as required by ODE policy.

Section 1120A(c)(1)(A), of the ESEA states that an LEA may receive funds under this part only
if state and local funds will be used in schools served under this part to provide services that,
taken as a whole, are at least comparable to services in schools that are not receiving funds under
this part.

Pursuant to 20 U.S.C. § 1232f, each recipient of federal funds shall maintain records, as will
facilitate an effective financial or programmatic audit, for three years after the completion of the
activity for which the funds were used. In addition, the Department’s Policy Guidance for Title
1, Part A: Improving Basic Programs Operated by Local Educational Agencies (April 1996),
states if the LEA files a written assurance that it has established and implemented a district-wide
salary schedule and policies to ensure equivalence among schools in staffing and in the provision
of materials and supplies, it must keep records to document that the salary schedule and policies
were implemented and that calculations demonstrate that equivalence was achieved among
schools in staffing, materials, and supplies. If the LEA established and implemented other
measures for determining compliance with comparability, such as student/instructional staff
ratios, it must maintain source documentation to support the calculations and documentation to
demonstrate that any needed adjustments to staff assignments were made. [Section 443 of the
General Education Provisions Act and 34 C.F.R. 76.730 and 80.42] In addition, according to
ODE’s policy, a district must enter instructional staff using the full time equivalency basis, and
student enrollment data for the same date to determine the student/instructional staff ratio for
comparability.

Buckeye Valley’s Title I Coordinator relied on the schools to maintain supporting documentation
for instructional staff and student data used in the comparability reports. Cleveland used an
actual staff count employed on a given day instead of the full time equivalency for instructional
staff on its comparability reports because it believed that it would not have an adverse impact on
any individual school's comparability.

Cleveland and Buckeye Valley LEAs had not fully considered the ODE policy concerning the
collection of data from the same day in order to produce an accurate representation of the
comparability of services information. Cleveland believes that Section 1120A(c)(2)(C) of the
                                                                        .
Final Report
ED-OIG/A05G0015                                                                                        Page 7 of 30
ESEA, which states that “an LEA need not include unpredictable changes in enrollment or
personnel assignments that occur after the beginning of the school year in determining
comparability of services” does not accommodate the “same date” directive nor does it recognize
the latitude provided by the law in the citation referenced. Although it was aware of ODE’s
comparability policy, Buckeye Valley felt that it was sufficient to complete the instructional staff
and student counts in the same month. ODE added that its policies use the term that all
enrollment and instructional staff full time equivalency figures used be “determined on the same
date,” which implies the same intent as the Department’s guidance. However, ODE did not
review the LEAs’ procedures for reporting complete and accurate comparability of services
information. 5

ODE did not ensure that the LEAs had adequate procedures in place and that the procedures
were implemented to facilitate reporting complete and accurate comparability information as
reported in Finding No. 1 of this report. Therefore, ODE was not able to demonstrate whether
schools in the LEAs we reviewed used state and local funds to provide services in Title I schools
that were at least comparable to services provided in non-Title I schools.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require
ODE to —

2.1      Provide sufficient and verifiable documentation to support compliance with the
         comparability of services requirement or return to the Department that portion of
         $315,012 6 in Title I, Part A, funds that Buckeye Valley LEA allocated to non-comparable
         schools for the 2003-2004 and 2004-2005 program years.

2.2      Implement controls to ensure that the LEAs understand and comply with the
         comparability of services requirements for Title I, Part A.

ODE Comments
ODE concurred with the draft report finding related to the LEAs’ need to maintain
documentation to substantiate their work. ODE also agreed, in part, to the requirement to use
"same date" data, but believes this provides an opportunity to get more clarity related to that
term. In addition, ODE concurred with the finding that Buckeye Valley failed to maintain the
exact records used to support the initial comparability report data that Buckeye Valley submitted
to ODE. However, ODE did not concur with Recommendation 2.1. ODE believes that its
reconstructed source documentation and revised comparability reports, provided prior to its
response to the draft report, show that comparability was achieved and that Buckeye Valley was
able to provide services that, taken as a whole, were substantially comparable in each of the
elementary schools for both the 2003-2004 and 2004-2005 school years. (See Attachment 1)

OIG Response
The additional documentation ODE provided to support the revised comparability reports did not
include explanations on how the FTE totals were calculated. In addition, the supporting

5
 See Finding No. 1 for more information.
6
 According to ODE, Buckeye Valley received $188,841 and $126,171 in Title I, Part A, funds in the 2003-2004 and 2004-2005
program years, respectively.
                                                                                        .
Final Report
ED-OIG/A05G0015                                                                                        Page 8 of 30
documentation for the enrollment counts included computer processed data from a system that
we had not tested. Therefore, even though Buckeye Valley’s revised comparability reports show
all schools as comparable, we cannot express an opinion on the accuracy of the data on those
reports. Based on ODE’s comments to the draft report and the documentation ODE provided,
we did not change the finding or recommendations.




                      OBJECTIVES, SCOPE, AND METHODOLOGY


Our audit objectives were to determine whether the ODE (1) monitored LEAs’ compliance with
Title I, Part A, Comparability of Services and (2) ensured that the LEAs were reporting complete
and accurate comparability information to ODE for the 2003-2004 program year. Our audit
covered the period July 1, 2003, through June 30, 2004 (2003-2004 program year). We also
obtained information covering the 2004-2005 program year to ensure annual compliance with
comparability requirements.

To achieve our objectives, we
 1. Obtained and reviewed audit reports and auditor documentation prepared by the Ohio
     Auditor of State for ODE and selected LEAs for our audit period;
 2. Visited three LEAs, Cleveland; Buckeye Valley; and Dover, that we judgmentally selected
     by stratifying all 615 LEAs into three categories: large, medium, and small, based on the
     amount of Title I funding received for the 2004-2005 program year, and selected the
     highest funded LEA from each category; 7
 3. Gained an understanding of ODE’s and selected LEAs’ internal control structure, policies,
     procedures, and practices applicable to comparability of services under Title I, Part A;
 4. Tested ODE’s monitoring of the selected LEAs’ (a) procedures for complying with the
     comparability of services requirements and implementing the procedures annually and (b)
     maintenance of records that are updated biennially documenting compliance with the
     comparability requirements; 8
 5. Determined how ODE monitored LEAs’ compliance with comparability of services
     requirements through inquiry, observation, and inspection of documentation and records;
     and
 6. Determined if the selected LEAs reported complete and accurate comparability data to
     ODE by tracing a judgmental sample of 19 of 121 and 2 samples of 3 of 3 schools’
     comparability data to supporting documentation for the Cleveland, Buckeye Valley, and
     Dover LEAs, respectively.

We relied, in part, on computer-processed data used on comparability reports that ODE and its
LEAs recorded in ODE’s Ohio Educational Directory System (OEDS) and in their own systems.
We also relied on the comparability data maintained in ODE’s Comprehensive Continuous
Improvement Planning (CCIP) system. We determined whether the system’s data were reliable



7
 Thirty-one of the 615 LEAs did not receive Title I funding for the 2004-2005 program year.
8
 We analyzed samples of comparability data obtained from the three selected LEAs for the 2003-2004 and 2004-2005 program
years to determine if the SEA is assessing the LEA comparability data correctly.
                                                                                        .
Final Report
ED-OIG/A05G0015                                                                                              Page 9 of 30
by selecting and testing a judgmental sample of comparability data for 15 of 615 total LEAs. 9
We gained a limited understanding of the related computer system controls and compared the
data within OEDS to the corresponding data in the CCIP for the selected LEAs. We also
compared the data in the CCIP to corresponding data in the selected LEAs’ systems. The data
generally appeared to be complete and accurate and had corroborating evidence on which we
could rely. 10 However, ODE does not update CCIP from OEDS on a regular basis. Therefore,
ODE may have used outdated data to review comparability for schools within its LEAs. Despite
the data inaccuracies, we concluded that the computer-processed data we were provided was
sufficiently reliable for the purposes of our audit.

We conducted our fieldwork from January 31, 2006, through April 13, 2006, at ODE’s
administrative offices in Columbus, Ohio; Cleveland’s administrative offices in Cleveland, Ohio;
Dover’s administrative offices in Dover, Ohio; and Buckeye Valley’s administrative offices in
Delaware, Ohio. We discussed the results of our audit with ODE officials on July 12, 2006. Our
audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of audit described above.




                                     ADMINISTRATIVE MATTERS


Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken, including the recovery of funds, will be made by
the appropriate Department of Education officials, in accordance with the General Education
Provisions Act.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                                       Henry L. Johnson
                                       Assistant Secretary
                                       Office of Elementary and Secondary Education
                                       US Department of Education
                                       400 Maryland Ave., SW, Room 3W315
                                       Washington, D.C. 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.



9
  We stratified the 615 LEAs into 3 categories: large, medium, and small, based on the amount of Title I funding received for the
2004-2005 program year, and selected the 5 highest funded LEAs from each category.
10
   Corroborating evidence is evidence such as interviews, prior reports, and data in alternative systems.

                                                                                              .
Final Report
ED-OIG/A05G0015                                                                 Page 10 of 30
In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                            Sincerely,

                                            /s/
                                            Richard J. Dowd
                                            Regional Inspector General
                                            for Audit




                                                                     .
                                                                           Attachment 1




October 5,2006


Richard J. Dowd
Regional lnspector General for Audit
U.S. Department of Education
Office of lnspector General
111 N. Canal Street, Suite 940 Chicago, IL 60606

Dear Mr. Dowd:

       RE: Control Number ED-O1G/A05G0015

Attached are the Ohio Department of Education's written comments on the findings and
recommendations regarding the draft audit report dated September 8, 2006, entitled Ohio
Department of Education's Title I, Part A, Comparability of Services Requirement. We
appreciate the opportunity to respond.

Sincerely,

/s/

Stephen L. Barr
Associate Superintendent

Attachments

cc: Suzan Zelman
    Marilyn Troyer
    Mitch Chester
    Stephanie Gerber
    Edward Peltz
                                                                                      Attachment 1




  Response to the Draft Audit Report entitled the Ohio Department of Education's Title I,
   Part A, Comparability of Services Requirement from the United States Department of
  Education Office of Inspector General dated September 8,2006 Audit Results (Control
                               Number ED-OIG/A05G0015)

 FINDING NO. 1 -ODE Can Improve Its Monitoring of LEAs' Compliance with Title I,
               Part A, Comparability of Services

ODE Comments: Ohio generally agrees with the OIG recommendations related to updating data
to the Consolidated Comprehensive Improvement Plan (CCIP) tool on a more regular basis. We
do question the recommendation of obtaining confirmations from LEAs regarding all revisions it
makes to reported comparability data. We do agree to increase oversight of district-written
procedures to help ensure district staff can identify their sources of data and the point in time the
data represent in complying with the comparability requirements.

Recommendation 1.1: Update CCIP from OEDS on a more regular basis to ensure that current
information is used to review comparability reports.

ODE Response: For the record, we want to make it clear again that the CCIP is not the official
data repository. It was not and is not intended to be the source of data for purposes of
comparability. For purposes of comparability, CCIP is merely an intermediate tool that facilitates
a quick view of district data. All questioned data is pushed back to the district and/or compared
to the data sources of the Ohio Educational Directory System-Redesigned (OEDS-R) and/or the
Educational Management Information System (EMIS). However, the OIG discussion has led us
to look at different ways to improve our process and the following options are under
consideration:
    • Update OEDS into the CCIP at the end of the first week following Labor Day and then
        update daily from then on. A snap-shot will be taken the last working day of November.
        Districts that have not submitted their reports will be required to demonstrate
        comparability with the end of November data.
    • Require districts to demonstrate compliance with the mid-October Educational
        Management Information System (EMIS) data collection which includes teacher and
        students count data.
    • Develop a new web-based application for the 2007-2008 school year and populate it with
        data from EMIS district database for reporting student enrollment and Staff FTE based on
        the first full week of October.
ODE will identify one of the options for implementation and will inform the OIG and the
USDOE offices of our decision.
                                                                                     Attachment 1




Recommendation 1.2:
                 1.2 Obtain confirmations from LEAs regarding all revisions it makes to
reported comparability data.

ODE Response: OIG sampled 15 districts with 539 school buildings representing 14% of the
3,901 public school buildings in the state. From that sample, they identified seven buildings (less
than 1.3% of the sample) with minor discrepancies in grade spans and with no effect on
comparability. ODE does make reasonable efforts to obtain confirmations regarding significant
changes that affect comparability. The fact that the OIG identified a 98.7% accuracy rate with a
large sample and under intense scrutiny attests to the quality of data and the thoroughness of the
review process. ODE will continue to verify data, but do not believe we can, in good faith,
identify reasonable procedures to raise the standard of verification to assure 100%.
Comparability is one of many compliance issues. The state does acknowledge and accept
responsibility for compliance but also realizes the need to maintain an appropriate balance of
time and effort between compliance and the purpose of the federal funds-student achievement.

Recommendation 1.3: Ensure LEAs develop written procedures for compliance with the
comparability of services requirement and implement those procedures annually.

ODE Response: ODE does emphasize that procedures be developed and implemented annually
in its announcements, directions and guidance (Exhibits 1 and 2). However, we also agree that
additional attention to this area is likely to assist district administrators improve the quality of
their work and leave a cleaner audit trail. To that end:
•      ODE will continue to provide training sessions on comparability at the annual fall 2006 and
       spring 2007 federal programs conferences and regional training workshops.
•      ODE has updated guidelines for comparability procedures (Exhibit 3) based on the new
       May 2006 USDOE Title I Fiscal Guidance.
•      The ODE Comparability Team will update other federal programs staff during the fall of
       2007 on the new comparability guidance and procedures.
•      ODE will review and consider appropriate updates to the monitoring process (see
       recommendation 1.4 below).
•      ODE will create a sample set of written procedures consistent with the 2006 USDOE
       guidance for districts to consider.
•      ODE will add an assurance section to the comparability forms on procedures and policies
       being in place and up-to-date, effective with the 2007-2008 school year.

Recommendation 1.4: Require the compliance monitoring team to review the adequacy of the
LEAs' procedures during its monitoring process.

ODE Response: ODE works in collaboration with the State Auditor's office in monitoring
comparability compliance. The State Auditor's office audits LEA comparability compliance
annually. ODE monitors comparability compliance annually as part of its tiered monitoring
process and reviews LEA comparability documentation biennially. The tiered monitoring
approach referred to as the Program Audit and Compliance Tracking System (PACTS)
includes desk audits, telephone surveys, self-



                                                                        .
                                                                                                                Attachment 1




evaluation and onsite reviews. ODE agree that a review and update to the monitoring process is
a reasonable request and is taking the following steps:

•   The following section has been added to the annual onsite review checklist (effective with
    the 2006-2007 school year) which is used by the ODE monitoring team to ensure compliance
    regarding the LEAs procedures:

          11. Fiscal Requirements: Comparability (NCLB 1120A)
          a.   Demonstrating comparability is a prerequisite for receiving Title I, Part A funds.
               Because Part A allocations are made annually, comparability is an ANNUAL
               requirement. The LEA has procedures in place for demonstrating comparability on an
               annual basis.
          •    Evidence of written procedures, timeline, identification of the office for making comparability
               calculations, the measure and process used to determine whether schools are comparable, and
               how and when the LEA makes adjustments in schools that are not comparable.
          b.   While an LEA is only required to submit the comparability report biennially (once every
               two years) to the SEA Office of Federal Programs, it must perform the calculations
               necessary every year to demonstrate that all of its Title I schools are in fact comparable
               and make any adjustments if any are not.
          •    Evidence of completed comparability report. (Note: The comparability requirement does not apply
               to an LEA that has only one building for each grade span. LEA may exclude schools that have
               fewer than 100 students).
          •    LEA maintained source documentation to support the calculations and documentation to
               demonstrate that any needed adjustments to staff assignments were made annually to ensure
               compliance with the comparability requirement.
          •    If the LEA is using the student/instructional staff ratio method to demonstrate comparability, all
               figures used (enrollment and instructional staff FTE) represent data from the same day in the
               current school year. The LEA should be consistent with regard to what day of the year the data
               collected represent.
          c.   The LEA has established and implemented a district-wide salary schedule and policies to
               ensure equivalence among schools in staffing and in the provision of materials and
               supplies.
          •    Records document that the salary schedule and policies were actually implemented annually and
               that they resulted in equivalence among schools in staffing, materials, and supplies so that, in fact,
               the LEA has maintained comparability among its Title I and non-Title I schools.


•   The comparability section of the electronic self-evaluation, which LEAs are required to
    complete on a three-year cycle, although it is recommended annually, will be updated for the
    2007-2008 school year to include additional procedural and policy compliance
    documentation requirements:
Comparability
Section Indicator                                                                         Documentation
1120 A District uses Title I funds only if State and local services taken as              Copy of completed
a whole or in part are substantially comparable in each school.                           comparability worksheet
Comparability worksheets are completed every year, and emailed
to ODE by December 1 of every odd-numbered year.
To be added:
Demonstrating comparability is a prerequisite for receiving Title I,                      Evidence of procedures
Part A funds. Because Part A allocations are made annually, comparability                 for compliance
is an ANNUAL requirement.                                                                 Maintain records


                                                                                               .
                                                                                            Attachment 1




Comparability
Section Indicator                                                         Documentation
The LEA has established and implemented a district-wide salary schedule    Agency-side salary
and policies to ensure equivalence among schools in staffing and in the   schedule
provision of materials and supplies.                                      Policy to ensure
                                                                          equivalence among
                                                                          schools in teachers,
                                                                          administrators, and other
                                                                          staff
                                                                          Policy to ensure
                                                                          equivalence among
                                                                          schools in the provision of
                                                                          curriculum materials and
                                                                          instructional supplies

FINDING NO. 2 – ODE Did Not Ensure That LEAs Were Reporting Complete and
                Accurate Comparability Information

ODE Comments:
      Comments This OIG finding focuses on several key issues: maintaining documentation
to show what data were used to demonstrate comparability and use of “same date” data. We
concur with the need to maintain documentation to substantiate the work. We agree, in part, to
the requirement to use “same date” data, but believe this provides an opportunity to get more
clarity related to that term.

A narrow interpretation of “same date” may preclude ODE from using one of the strategies
under consideration. That strategy would be to use EMIS data regarding student enrollment.
The official reporting period for districts to submit EMIS student enrollment data to ODE is the
first full week of October, which represents a five-day average. The use of this data would
provide more consistency across the state and lead most districts to standardize their processes.
However, unless clarified in guidance or through this review process, the state could place itself
at risk of not meeting a same date standard.

Another instance where same date could be challenged follows. An LEA could select Friday,
Oct. 20, 2006, as the basis for the comparability calculation. On that date, the request is
submitted for the morning enrollment report from the district student database and a payroll
report (10/22 is the pay date). There would now be two reports based on the same date run on
the same date. However, the payroll report for 10/22/06 is payment for services rendered on
Sept. 25 through Oct. 6, 2006. In this case, the date of the reports will reflect “same date” but
will not truly represent the exact time period. To retrieve the Oct. 20 data, the LEA would need
information from the Nov. 3 payroll report.

Recommendation 2.1: Provide sufficient and verifiable documentation to support compliance
with the comparability of services requirement or return to ODE $315,012 in Title I, Part A,
funds that the Buckeye Valley LEA received for the 2003-2004 and 2004-2005 program years.




                                                                             .
                                                                                    Attachment 1




ODE Response:
      Response ODE sent a team to assist Buckeye Valley Local School District (BVLSD) this
summer with their comparability documentation and reports for 2003-2004 and 2004-2005
school years. The individual responsible for previously completing the comparability reports had
since left the district. A new team was assigned by the Superintendent to review and reconstruct
the documentation for both years. The director of administrative services was assigned the task
of reviewing the comparability calculations and procedures. The district review team consisted
of the superintendent, treasurer, special education director, EMIS coordinator, superintendent's
secretary, director of classified services and curriculum director.

BVLSD is a small rural district, comprised of the following schools, with a total
enrollment of 2,209 students:
   o Buckeye Valley High School, grades 9- 12, enrollment 673;
   o Buckeye Valley Middle School, grades 6-8, enrollment 555;
   o Buckeye Valley East Elementary School, grades K-5, enrollment 379;
   o Buckeye Valley North Elementary School, grades K-5, enrollment 26 1;
   o Buckeye Valley West Elementary School, grades K-5, enrollment 341;
(The only schools involved for comparability purposes were East, North and West Elementary
Schools.)

In consultation with ODE, BVLSD revised the comparability report based on classroom
instructional staff FTE. Updated student enrollment data was retrieved with source
documentation and consistent with regard to what day of the year the data collected. The BVSD
team was able to organize the source documentation and validate the data reported on the revised
comparability forms.

Our review of the reconstructed source documentation and revised comparability reports
evidence that comparability was achieved and that BVSD was able to provide services that,
taken as a whole, were substantially comparable in each of the elementary schools for both the
2003-2004 and 2004-2005 school years.

The revised comparability for both years was submitted to OIG for consideration on Sept. 3.
The OIG review comments received on September 25 indicate that the district "did not have
adequate documentation to support the data used to populate the comparability reports.
Instead, we received yet another revised version of the comparability report to match the data
on the support documents. If BVLSD's initial comparability report included incorrect data,
then ODE/BVLSD needs to simply state this. Revised versions of the comparability report
only confirm that BVLSD submitted inaccurate data on its comparability reports to ODE."

We take issue with several comments. First, accompanying the comparability data were
documentation from the district directory, payroll records, teacher schedules and instructional
staff spreadsheet (Exhibit 4). This type of documentation is generally acceptable and specific to
the time and issue at hand. Second, the problem with the initial data submitted by the district was
not that they were inaccurate, but that the district "failed to maintain" the exact records used.




                                                                       .
                                                                                      Attachment 1




The district had no recourse but to reconstruct the comparability report using "same date" data
that appears to approximate the time of the initial report. We would suggest that the revised
calculation conforms to section 1 120A of No Child Left Behind and the 1996 and 2006
USDOE Title I Fiscal guidance that Title I school services be "at least comparable" and
"substantially comparable."

Subsequent to the OIG rejection of the revised comparability reports, ODE requested
information regarding any additional staffing that may have occurred. A district review of Board
of Education records, indicate no staffing changes in the elementary buildings that were not
reflected in the comparability calculations. Few to no changes after the beginning of school is
somewhat typical of small, economically disadvantaged districts.

2.2: Implement controls to ensure that the LEAS understand and comply with the comparability
of services requirements for Title I, Part A.

ODE Response:
       Response ODE does implement controls to reasonably assure compliance with federal
requirements, including comparability. Controls and assistance include: a web- based documents
library that houses extensive USDOE and ODE guidance, recommendations, templates and
examples; two federal conferences annually that routinely address compliance issues and often
highlight comparability specifically; an automated application process that has many automated
edit checks and several layers of review and extracts data from official data collection systems to
reduce data error; and a tiered monitoring process that tries to ensure some level of scrutiny of all
districts. In the monitoring process 100 percent of the districts are desk audited annually and this
process is expanding as the data collection system matures. The monitoring process also assures
that 100 percent of the districts (about 1,000 entities including charter school districts) will
participate in the web-based self analysis at least once every three years. The telephone and on-
site monitoring tiers are based on pre-designated risk factors including: amount of allocation,
administrative staff changes, prior review findings, staff judgment, and failure to fully complete
the self-evaluation. Over a three-year period, we estimate that annually 20 to30 percent of the
districts participate in an on-site review and 10 to 20 percent of the districts participate in
telephone monitoring.

ODE regularly trains a small group of its staff to monitor and review the biennial comparability
reports and provide for a second review of the reports. Our response to recommendation 1.3
indicates our desire to improve our technical assistance and support. Our response to
recommendation 1.1 indicates our intent to improve the data integrity throughout the system.
However, we do not believe we have the capacity to expand the on-site monitoring process to a
higher number of districts and/or an increase of intensity without neglecting other compliance
areas. If our responses to recommendations 1.1 and 1.3 and the tiered process are insufficient, we
would request guidance on what might demonstrate acceptable controls.




                                                                         .
                                                                                   Attachment 1


EXHIBIT 1                                                          EXHIBIT 1
      Title I Comparability of Services, NCLB, SEC. 1120A Fiscal Requirements

        To be eligible to receive Title I funds, a Local Educational Agency (LEA) must use
state and local funds to provide services in Title I schools that are at least comparable to
services provided in non-Title I schools. If the LEA serves all of its schools with Title I
funds within a particular grade span, the LEA must use State and local funds to provide
services that are substantially comparable in each school. The LEA must develop written
procedures for compliance with the comparability requirement and implement these
procedures Annually. These procedures should be in writing and should, at a minimum,
include the LEA'S timeline for demonstrating comparability, identification of the office
responsible for making comparability calculations, the measure and process used to
determine whether schools are comparable, and how and when the LEA makes adjustments
in schools that are not comparable (refer to USDOE May 2006 Title I Fiscal Guidance on
Comparability). The LEA is required to submit documented compliance every two years in
odd numbered years to the Office of Federal Programs at the Ohio Department of
Education. The 2005-2006 school year was the most recent year for submitting the report to
the Ohio Department of Education, Office of Federal Programs. Even though you do not
have to submit the comparability report to ODE for the 2006-2007 school year, you still
must complete the comparability report for the 2006-2007 school year and keep a printed
copy on file along with appropriate source documentation and records for audit purposes.
The directions and forms can be located in the CCIP doc library under the Financial
Section. If you have difficulty downloading the form(s), you can email
edward.peltz@ode.state.oh.us and the Excel form can be emailed to you as an attachment.
If you have questions or need assistance, please contact either your federal program
consultant or Ed Peltz at 614-466-4161 or Tony McManus, Paul Preston, Robert Tromp,
who can also assist you.

LEA Title I Comparability of Services Written Assurances (NCLB, Sec.
1120A(c)(2),CCIP Consolidated Application Assurances )
LEA has established and implemented a—
   • District-wide salary schedule;
   • Policy to ensure equivalence among schools in teachers, administrators, and other
      staff; and
   • Policy to ensure equivalence among schools in the provision of curriculum materials
      and instructional supplies.




                                                                      .
                                                                                     Attachment 1




EXHIBIT 2                                                            EXHIBIT 2

              Title I Comparability Report Directions for FY07
Issue Date:            May 1,2005                   Revised: October 4,2006
Sources:               NCLB PL 107-110, Section 1120A,Fiscal Requirements
                       May 2006 USDOE Non-Regulatory Guidance Title I Fiscal Issues:
                       Comparability
Key Words:             Title I Comparability Report Directions
Summary:               Directions/Procedures for completing the Title I Comparability
                       Report

Comparability Overview
To be eligible to receive Title I funds, a Local Educational Agency (LEA) must use state and
local funds to provide services in Title I schools that are at least comparable to services provided
in non-Title I schools. If the LEA serves all of its schools with Title I funds within a particular
grade span, the LEA must use State and local funds to provide services that are substantially
comparable in each school. The LEA must develop procedures for compliance with the
comparability requirement and implement these procedures Annually. These procedures should
be in writing and should, at a minimum, include the LEA'S timeline for demonstrating
comparability, identification of the office responsible for making comparability calculations, the
measure and process used to determine whether schools are comparable, and how and when the
LEA makes adjustments in schools that are not comparable (refer to USDOE May 2006 Title I
Fiscal Guidance on Comparability). The LEA is required to submit documented compliance
every two years to the Office of Federal Programs at the Ohio Department of Education. The
2005-2006 school year was the last year for submitting the report to the Ohio Department of
Education, Office of Federal Programs. Even though you do not have to submit the
comparability report to ODE for the 2006-2007 school year, you still must complete the
comparability report and keep a printed copy on file along with appropriate source
documentation and records for audit purposes.

The comparability requirement does not apply if the Local Educational Agency [LEA] has only
one building in each grade span. If grade spans overlap, however, the comparability
requirement may apply (see further details under General Information). The LEA may also
exclude schools with 100 or fewer students from its comparability determinations.

General Information
• Instructional staff, instructional supplies, and curriculum materials paid for out of federal
  programs, including Title I, IIA, etc., are excluded in determining comparability of services.
• Make sure the school building information regarding names of schools and grade spans are
  up-to-date with OEDS and the FY07 CCIP Building Eligibility Page in the CCIP
  Consolidated Application when determining your date for documenting compliance with the
  comparability report. The CCIP Building Eligibility Page should be maintained with your
  records and other source documentation for audit purposes.
                                                                        .
                                                                                      Attachment 1


•

    Schools have to be comparable in one of the following: student/instructional staff ratio
    (Method A), per pupil expenditure (Method B), or per pupil instructional staff
    expenditure (Method C). Whichever method is selected, it must be uniformly applied
    within each grade span report. Method A, Student/Instructional Staff Ratio, is the preferred
    method of documentation. Method B, Per Pupil Expenditure, is an alternate method. If
    Method B is used, the School district must be prepared to validate the data in the event of an
    audit at the end of the fiscal year. The Excel form is designed to enable the district to
    complete the report using either Method A or B or both or Method A or C or both.
•   A LEA may determine comparability on a district-wide basis (less common) or on a grade-
    span basis (more common). Although there is no limitation on the number of grade spans a
    LEA may use, the number should match the basic organization of schools in the school
    district. For example, if the LEA'S organization includes elementary, middle, and senior high
    schools, the LEA would have three grade spans.
•   The comparability requirement does not apply if the LEA has only one building in each
    grade span, e.g., K-5,6-8,9-12. If grade spans overlap by at least two grade levels, however,
    the comparability requirement applies unless there are three or more grade levels outside of
    the overlap. When grade levels overlap within a particular grade span, the LEA looks at
    where the majority of grade levels fall within the span to determine whether the school
    should be in elementary, middle, or high school grade spans.
•   An additional grade span group is permitted for schools that overlap the grades in other
    schools and include 8 or more grades above kindergarten; for example: K-8, K-9, or 5-12.
•   If there is a significant difference in the enrollments of schools within a grade Span --for
    example, the largest school in the grade span has an enrollment that is two times the
    enrollment of the smallest school in the grade span --the LEA may divide grade spans into a
    large school group and a small school group.
•   A LEA may also exclude schools with 100 or fewer students from its comparability
    determinations.
•    Accessing the Excel form: Mac users will need either Acrobat Reader/Excel98, 2001, or
    newer. Windows users will need Acrobat Reader/Excel 97,2000, or newer. The report forms
    are available in Microsoft Excel format. One can refer to the Support Information Link in the
    CClP to check browser requirements or see if someone with technical knowledge at the LEA
    can help. PC users who experience difficulty opening the form and saving it to the desktop or
    document files, can try saving it directly to the desktop or right clicking the mouse and
    saving to the desktop. One can try to see if it's a browser issue or not by trying to save the
    Excel file to the computer rather than opening it directly from the web site. There should be
    an option when clicking on the link to either Open the file immediately, or save it to the
    computer. If it is saved to the computer, one can then try to open the file from that location. If
    this is unsuccessful, one can email Ed Peltz at edward.peltz@ode.state.oh.us,requesting
                                                      edward.peltz@ode.state.oh.us               the
    form be sent directly as an email attachment.
•   Determine which form is needed. LEAS with 15 or fewer schools served in any one-grade
    span, should use the regular size Comparability Report Form FY07. The larger urban districts
    (e.g., Akron, Cleveland, Cincinnati, Columbus, Dayton, Toledo), with more than 15




                                                                         .
                                                                                       Attachment 1



     schools served in any one-grade span, should use the larger report named Comparability
     Large Report From FY07.
•    Next, start Microsoft Excel and open the selected file.
•    Determine how many comparability reports are needed before saving to file or desktop so
     each one can be named separately.
•    Under file, choose "save as" and rename the file with the name of the LEA and district IRN,
     e.g., Buckeye04444FY06, Buckeye04444Rep1of 2 or Buckeye04444K-5, if there is more
     than one report. Save the file after completing each report.
•    When printing the Excel report, remember that there are two pages to some of the forms. One
     must print each page separately or use the print entire workbook command to print both
     pages. On the forms with two pages, do not list the same schools on both pages because you
     are in essence comparing the same schools to the same schools.

Directions for FY2007 Title I Comparability Report
1.   Complete the Comparability LEA Report form first (tabs are named at the bottom of the
     forms as "LEA-Report" and "Comparison~Schools").Click on tabs at the bottom of the forms
     to move back and forth. The form is provided as an Excel spreadsheet for your convenience.
2.   Enter District Information: Name, District IRN, Person Completing Form & Phone
     Number, Name of Treasurer & Phone Number, Contact Email Address, Date Completed
     (mm/dd/yy, such as 10/28/06), County of LEA, and Comparison Group option (Grade Span
     is usually the preferred choice).
3.   Col. A: Enter the names of served schools in descending order based on student low-income
     eligibility (i.e., percentage of free and reduced lunches) beginning with line 1. Enter the same
     data as reported in the Title I Building Information section under Building Eligibility in the
     2006-2007 Comprehensive Continuous Improvement Plan (CCP) Consolidated Application.
     If the names of the schools andlor grade spans do not match, you may first need to update
     OEDS and contact your consultant to alert them to update the CCP before completing the
     comparability report.
     a. Served and Non-Served Schools in a Grade Span: :Served school(s) are entered on the
          first page of the report and are compared to the average of non-served school(s) in each
          grouping that are entered on the second page of the report.

     b. All Title I Schools Served in a Grade Span: Served school(s) with highest or higher
        pct. of low income students are entered on the first page of the report and compared to the
        served school with the lowest pct. of low income students in each grouping, which is
        entered on the second page of the report, OR, Served school(s) with the higher pct. of low
        income students are compared to the average of up to half of those served schools with
        the lowest pct. of low income students in each grouping.

         A new way of determining comparability when all schools are served in a grade span
         is now available to use: If all the schools in the grade span are Title I served schools, the
         district can select the form that demonstrates comparability by determining whether the
         student/instructional staff ratio, per pupil expenditure, or per pupil instructional staff
         expenditure for each school falls within a range that is between 90 and 110 percent of the
         average for all Title I served schools in the grade span.


                                                                          .
                                                                                      Attachment 1



     c. Larger/Smaller Option:
                           Option The LEA may divide schools in each grade span grouping into
         two groups (smaller and larger) if the enrollment of the largest school is at least twice the
         enrollment of the smallest school. One report would be marked smaller and one report
         would be marked larger unless one of the groups ends up only having one school, and, in
         that case, one report could be completed and list the one-of-a-kind school at the bottom of
         the report and mark larger and smaller at the top of the report. This option should not be
         used unless it is necessary in meeting comparability. Please contact Ed Peltz if you need
         assistance with this option.
4.   Col. B: Enter the percentage or number of low-income students reported in the Title I
     Building Information section under Building Eligibility of the FY07 CCP Consolidated
     Application, which usually represents 05-06 data since the application is almost always
     completed prior to the start of the 2006-07 school year. The LEA must report uniformly
     among schools.
5.   Col. C: Enter grade span. There may be a slight difference in schools that are compared
     (e.g., K-5 and K-6). These schools would have to show comparability since they serve
     substantially the same grade span. K-8 grade spans may be grouped separately or reported
     as one-of-a-kind. Enter grade spans as reported in the FY07 CCP Title I Building Eligibility
     section of the Consolidated Application.
6.   Col. D: Enter FY2007 Enrollment (that can be documented). Enrollment can be reported as
     whole or full time equivalency (FTE), providing it is reported the same across the district.
     Enrollment and Staff Full Time Equivalency (FTE) in direction #7 should be consistent
     with regard to what day of the year the data collected represent. Enrollment and staff
     figures must represent the 2006-2007 school year and is usually different than what is on the
     FY07 CCP Consolidated Application Building Eligibility Page since it was completed, in
     most instances, prior to the start of the school year. Exclude all staff paid out of federal
     funds. Note: Do not count Pre-K teachers or Pre-K students.
7.   Complete Column E only if using Method A: Enter FY2007 Instructional Staff Full time
     Equivalency (FTE). Staff must be figured on the basis of FTE. Instructional Staff FTE
     and enrollment in direction #6 above should be consistent with regard to what day of
     the year the data collected represent. Sample definition of Instructional Staff:
     Instructional staff may include teachers and other personnel assigned to schools who provide
     direct instructional services, such as music, art, and physical education teachers, guidance
     counselors, speech therapists, and librarians, as well as other personnel who provide services
     that support instruction, such as school social workers and psychologists. Funds for staff
     from federal programs, including Title I, IIA, et al., are not to be included in determining
     comparability of services. Do not count Pre-K teachers or Pre-K students.
8.   Complete Column F only if using Method B or C: For Method B, enter state and local
     funds budgeted for curriculum materials and instructional supplies for the 2006-2007 school
     year. These accounts are located between functions 1000 through 1900 in the Uniform
     School Accounting System budget document. For Method C, enter the amount of state and
     local funds budgeted for salaries for instructional staff for the 2006-2007 school year. For
     Method C, use the base salary for each position, i.e., teachers, instructional aides, etc. Funds
     from federal programs are not to be included.




                                                                          .
                                                                                     Attachment 1




9.    Col. G: The form is programmed to divide Col. D by E and automatically enter the
      teacherlstudent ratio.
10.   Col. H: The form is programmed to divide Col. F by D and automatically enter the budgeted
      amounts on a per-student basis.
11.   Col. I: If any Title I-served school is "not comparable," an "NC" will appear. "NC's" may
      appear prematurely while completing the LEA Report form. This is because Excel is
      processing. The NC's should disappear once both pages of the report are completed. If an
      "NC" appears in Column I after completing the second page of the report, named
      "Comparison Schools," one may need to call your Title I consultant for assistance at 614-
      466-4161. If you are using one of the new forms, Column F will indicate "yes" or "no" with
      regard to comparable services. If a "no" appears contact your consultant for further
      assistance.
12.   Line 16: The average of non-served school(s) in this grade span -OR the average of lowest-
      ranked school(s) if all schools are served -is automatically carried forward from the
      "Comparison Schools" page.
13.   On the forms that include two pages, click on the tab at the bottom of the form named
      "Comparison Schools." Technical assistance from someone in the district may be necessary
      if one experiences difficulty in finding the tabs at the bottom left side of the report form
      pages. It maybe simply a matter of adjusting the desktop. Indicate if the comparisok schools
      are Title I-served or non-served schools by typing an X in the appropriate box. Begin with
      line 1 and list comparison schools in descending order of percentage of low-income students
      and follow the same instructions outlined in steps 4-8 above. Columns G and H will calculate
      and fill in automatically. Line 16 is programmed to fill in automatically at the bottom of the
      Comparison Schools page as well as carry forward to line 16 on the LEA Report page.
14.   Item G17 will automatically be entered based on 110% of G16. All Title I-served schools
      MUST have an equal or smaller student/instructional staff/ratio than G17.
15.   Item H18 will be entered automatically based on 90% of H16. All Title I-served schools
      MUST have an equal or higher per-student amount budgeted for curriculum materials and
      instructional supplies than H18. The same rule applies to the average per pupil instructional
      staff cost.
16.   Enter "one-of-a-kind" served schools at the bottom of the LEA Report page.
17.   After completing the Comparability Report, keep a printed copy on file for audit purposes as
      well as maintain a copy in your electronic file along with the appropriate records and source
      documentation.
18.                                                           edward.peltz@ode.state.oh.us Tony
      If you need assistance, please call or email Ed Peltz, edward.peltz@ode.state.oh.us,
      McManus, tony.mcmanus@ode.state.oh.us,Paul Preston, paul.preston@ode.state.oh.us,
      or Robert Tromp, robert.tromp@ode.state.oh.us, or your Title I consultant at 614-466-
      4161.

Determining Compliance
When determining compliance for comparability, a LEA may exclude State and local funds
expended for-
•    language instruction educational programs (bilingual education for limited English
     proficient children; and



                                                                         .
                                                                                       Attachment 1




•   excess costs of providing services to children with disabilities as determined by the School
    District.

Exclusion of Funds
For the purposes of determining compliance with the comparability requirement in section
1120A(c) and the supplement, not supplant requirement in section 1120A(b) of the ESEA, the
LEA may exclude supplemental State and local funds expended in any school attendance area or
school for-
• programs that meet the intent and purposes of Sections 1114 (Part A-Schoolwide), 1115 (Part
   A-Targeted Assistance Schools), and
• programs that meet the intent and purposes of Section 1301 (Part C-Education of Migratory
   Children).

LEA Written Assurances LEA has established and implemented a--District-wide salary schedule;
Policy to ensure equivalence among schools in teachers, administrators, and other staff; and Policy to
ensure equivalence among schools in the provision of curriculum materials and instructional
supplies.




                                                                          .
                                                                                   Attachment 1


EXHIBIT 3                                                           EXHIBIT 3

                            Title I Comparability Fiscal Procedures
                                        NCLB, Sec. 1120A
                   Title I Fiscal Issues Non-Regulatory Guidance (May 2006)

Demonstrating comparability is a prerequisite for receiving Title I, Part A funds. Because Part
A allocations are made annually, comparability is an ANNUAL requirement. Implement
procedures for determining comparability on an annual basis. Submit the comparability report
to ODE biennially (once every two years).

An LEA must develop procedures for complying with the comparability requirements and
implement these procedures annually. These procedures should be in writing and should, at a
minimum, include:
   • the LEA'S timeline for demonstrating comparability,
   • identification of the office responsible for making comparability calculations,
   • the measure and process used to determine whether schools are comparable,
   • performing the calculations necessary every year to demonstrate that all of its Title I
      schools are in fact comparable and make adjustments if any are not,
   • how and when the LEA makes adjustments in schools that are not comparable,
   • source documentation to support the calculations and documentation to demonstrate
      that any needed adjustments to staff assignments are made.

In addition, the LEA must have established and implemented:
    • an agency-wide salary schedule
    • a policy to ensure equivalence among schools in teachers, administrators, and other
        staff; and
    • a policy to ensure equivalence among schools in the provision of curriculum materials
        and instructional supplies.


                                      Example Timeline

January-April
   • Engage in district-level budget (State and local funds) discussions concerning staff
       assignments, and distribution of equipment and materials for the purpose of ensuring
       compliance with Title I comparability requirements for the upcoming school year.

May-July
  • Conduct meetings with appropriate LEA representatives to discuss the requirements for
      completing the annual comparability calculations.
  • Establish participant roles and responsibilities.
  • Establish specific timelines for completion of the calculations.
                                                                                  Attachment 1



August
   • Obtain preliminary information from appropriate LEA staff.
   • Decide which calculation methodology to use. Refer to Ohio Department of Education
       (ODE) direction/procedures, comparability forms, and guidance, located in the doc
       library CCIP Consolidated Application electronic website.
   • Identify LEA Title I and non-Title I schools

September
   • Identify date and collection methodologies for gathering data needed to complete
      calculations. Refer to ODE directions/procedures and guidance.
   • Ensure the CCP Consolidated Application Title I Building Eligibility page is up-to-date
      in terms of names of schools and grade spans.

October
   • Collect data.
   • Meet with appropriate staff and calculate comparability.
   • Make corrections to Title I schools shown not to be comparable.

November
   • Reconvene appropriate LEA staff to address any outstanding issues.
   • File an official copy of the completed comparability report (s) with the designated district
     office (usually the treasurer's office) for audit purposes and submit documented
     compliance every two years to ODE on the designated comparability report(s) provided
     by ODE.
   • Maintain all required documentation supporting the comparability calculations and any
     corrections made to ensure that all Title I schools are comparable. Any report used for
     documentation should be signed and dated by the person issuing the report.

An LEA should keep the comparability requirement in mind as it plans for the allocation of
instructional staff and resources to schools for the coming school year. This would enable the
LEA to minimize the potential for disruption in the middle of a school year, should adjustments
need to be made to ensure that Title I schools are comparable to non-Title I schools.




                                                                      .
    Attachment 1




.
                                                                                      Attachment 2


 Revised Response to the Draft Audit Report entitled the Ohio Department of Education’s
 Title I, Part A, Comparability of Services Requirement from the United States Department
                       of Education Office of Inspector General dated
                                       September 8, 2006
                    Audit Results (Control Number ED-OIG/A05G0015)

Background: In its initial draft audit report (Control Number ED-OIG/A05G0015) the OIG
made a recommendation to which the Ohio Department of Education (ODE) responded. In
reviewing the ODE response to Recommendation 1.2, members of the OIG team determined that
ODE did not interpret the recommendation as they intended. After a telephone call, they
clarified their finding via an e-mail. This document provides the initial finding statement and the
original ODE response. It then provides the content of the e-mail clarifying the finding and then
ODE’s revised response based on that new language.


FINDING NO. 1 – ODE Can Improve Its Monitoring of LEAs’ Compliance with
                Title I, Part A, Comparability of Services

ODE Comments: Ohio generally agrees with the OIG recommendations related to updating data
to the Consolidated Comprehensive Improvement Plan (CCIP) tool on a more regular basis. We
do question the recommendation of obtaining confirmations from LEAs regarding all revisions it
makes to reported comparability data. We do agree to increase oversight of district written
procedures to help ensure district staff can identify their sources of data and the point in time the
data represent.

Initial Recommendation 1.2: Obtain confirmations from LEAs regarding all revisions it makes
to reported comparability data.

ODE Response: OIG sampled 15 districts with 539 school buildings representing 14% of the
3,901 public school buildings in the state. From that sample, they identified 7 buildings (less
than 1.3% of the sample) with minor discrepancies in grade spans and with no effect on
comparability. ODE does make reasonable efforts to obtain confirmations regarding significant
changes that affect comparability. The fact that the OIG identified a 98.7% accuracy rate with a
large sample and under intense scrutiny attests to the quality of data and the thoroughness of the
review process. We will continue to verify data, but do not believe we can in good faith identify
reasonable procedures to raise the standard of verification to assure 100%. Comparability is one
of many compliance issues. The state does acknowledge and accept responsibility for
compliance but also realizes the need to maintain an appropriate balance of time and effort
between compliance and the purpose of the federal funds—student achievement.


Purpose of clarification as described by the OIG: Per our discussion this morning, we are
providing clarification regarding the meaning of a recommendation presented in the Ohio
Department of Education Title I, Part A, Comparability of Services Requirement Draft Report.
After reviewing ODE's response to the Draft Report, we believe that ODE may have
misconstrued the intent of Recommendation 1.2.
                                                                                     Attachment 2

ODE interpreted the recommendation to imply that ODE should implement a standard of 100
percent verification of all comparability data revised by the LEAs. However, we intended to
state that, prior to ODE revising any data that LEAs report on their comparability reports, ODE
should contact the LEA and verify that the revisions ODE makes are correct. Recommendation
1.2 will be revised to read:

OIG Revised Recommendation 1.2: We recommend that the Assistant Secretary of
Elementary and Secondary Education require ODE to obtain confirmations from LEAs regarding
all revisions ODE makes to reported comparability data. "

ODE Revised Response based on revised Recommendation 1.2: We agree with the revised
recommendation. ODE will modify staff comparability checklists to include a requirement to
inform districts of any anticipated change(s) to be made by ODE and request an e-mail response
from the district agreeing to the change(s). Copies of the correspondence will be filed with the
district comparability report.

We will also include this action as a part of the requirements gathering for an anticipated on-line,
web-based comparability tool. The task will provide for comments and responses to be collected
and made a permanent and auditable part of the district's comparability report.
